August 4, 2003

LEE R. HEATH
CHIEF POSTAL INSPECTOR

SUZANNE F. MEDVIDOVICH
SENIOR VICE PRESIDENT, HUMAN RESOURCES

SUBJECT: Audit Report – Postal Inspection Service Law Enforcement Staffing
         Requirements (Report Number SA-AR-03-004)

This report presents the results of our self-initiated audit of the Postal Inspection Service
law enforcement staffing requirements (Project Number 03BG001OA000). Our
objective was to determine how the Postal Inspection Service established its staffing
requirement.

The audit revealed the Postal Inspection Service did not have a formal internal process
for determining its overall staffing complement. The audit also revealed that Postal
Service Human Resources did not conduct audits and assessments of the overall
complement and mix of positions of the Postal Inspection Service to ensure the
effectiveness of approved staffing in accordance with Postal Service policy.

We recommended the chief postal inspector, in conjunction with the senior vice
president, Human Resources, develop a formal, documented internal process to
conduct an annual staffing review to determine the Postal Inspection Service’s staffing
complement. In addition, we recommended the senior vice president, Human
Resources ensure audits and assessments of the overall staffing complement and mix
of positions of the Postal Inspection Service are conducted on a periodic basis to
evaluate the effectiveness of approved staffing, and provide the results to the chief
postal inspector.

Management disagreed with our recommendations to develop a formal, documented
internal process to conduct annual staffing reviews, and ensure audits and assessments
of the overall staffing complement and mix of positions are conducted on a periodic
basis. Management stated a formal internal process existed and was incorporated in
the Postal Service’s annual budget call. Management further stated the Postal
Service conducted periodic evaluations of staffing for all units within the organization,
including the Postal Inspection Service. We view the disagreements on
recommendations 1 and 2 as unresolved and plan to pursue them through the formal
audit resolution process. Management’s comments and our evaluation of these
comments are included in the report.

The Office of Inspector General (OIG) considers recommendations 1 and 2 significant
and, therefore, requires OIG concurrence before closure. Consequently, the OIG
requests written confirmation when corrective actions are completed. These
recommendations should not be closed in the follow-up tracking system until the OIG
provides written confirmation that the recommendations can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit.
If you have any questions or need additional information please contact
Michael L. Thompson, director, Inspection Service Audits, at (703) 248-2100 or me at
(703) 248-2300.



Ronald D. Merryman
Deputy Assistant Inspector General
 for Technology/Oversight

Attachment

cc: Richard J. Strasser, Jr.
    James J. Rowan, Jr.
    Vivian J. Bellinger
    David P. Cybulski
    Susan M. Duchek
Postal Inspection Service Law                                            SA-AR-03-004
 Enforcement Staffing Requirements



                                     TABLE OF CONTENTS
   Executive Summary                                                       i

   Part I

   Introduction                                                            1

     Background                                                            1
     Objective, Scope, and Methodology                                     1
     Prior Audit Coverage                                                  2

   Part II

   Audit Results                                                           4

     Lack of a Formal Internal Process to Determine Staffing
      Requirements                                                         4
     Recommendation                                                        7
     Management’s Comments                                                 7
     Evaluation of Management’s Comments                                   7

     Audits and Assessments of Overall Complement and Mix of Positions    10
     Recommendation                                                       11
     Management’s Comments                                                11
     Evaluation of Management’s Comments                                  12

   Appendix A. Letter dated April 17, 2003, from the Chief Postal         13
               Inspector

   Appendix B. Management’s Comments                                      14
Postal Inspection Service Law                                                       SA-AR-03-004
 Enforcement Staffing Requirements


                             EXECUTIVE SUMMARY
Introduction                 This report presents the results of our self-initiated audit of
                             the Postal Inspection Service law enforcement staffing
                             requirements. Our objective was to determine how the
                             Postal Inspection Service establishes its staffing
                             requirements.

Results in Brief             The audit revealed that the Postal Inspection Service did not
                             have a formal internal process for determining its overall
                             staffing complement. Specifically, the Postal Inspection
                             Service did not conduct a formal annual review to determine
                             and justify its overall complement. This occurred because
                             neither Postal Service nor Postal Inspection Service policy
                             require the Postal Inspection Service to develop a formal
                             internal process for annually determining and justifying its
                             staffing requirements.

                             The audit also revealed that Postal Service Human
                             Resources did not conduct audits and assessments of the
                             overall complement and mix of positions of the Postal
                             Inspection Service to ensure the effectiveness of approved
                             staffing in accordance with Postal Service policy. The
                             manager, Customer Requirements, stated this occurred
                             because Human Resources did not have adequate staff.

                             As a result, no comprehensive staffing reviews of the Postal
                             Inspection Service’s overall complement were conducted
                             during the period we reviewed, from fiscal years 1998
                             through 2002, to ensure that the Postal Inspection Service
                             had the appropriate number of positions to accomplish its
                             mission and goals. Additionally, Postal Service Human
                             Resources did not ensure the most effective use of human
                             resources.

Summary of                   We recommended the chief postal inspector, in conjunction
Recommendations              with the senior vice president, Human Resources, develop a
                             formal, documented internal process to conduct an annual
                             staffing review to determine the Postal Inspection Service’s
                             staffing complement. In addition, we recommended the
                             senior vice president, Human Resources, ensure audits and
                             assessments of the overall staffing complement and mix of
                             positions of the Postal Inspection Service are conducted on
                             a periodic basis to evaluate the effectiveness of approved
                             staffing, and provide the results to the chief postal inspector.


                                            i
Postal Inspection Service Law                                                   SA-AR-03-004
 Enforcement Staffing Requirements



Summary of                   Management disagreed with our recommendation to
Management’s                 develop a formal, documented, internal process to conduct
Comments                     annual staffing reviews. Management stated a formal
                             internal process existed and was incorporated in the Postal
                             Service’s annual budget call. Management stated the
                             process was based on the management practice of
                             delegating authority to Postal Inspection Service
                             management executives and allowing them to assess their
                             staffing needs.

                             Management also disagreed with our recommendation to
                             ensure audits and assessments of the overall staffing
                             complement and mix of positions of the Postal Inspection
                             Service are conducted on a periodic basis. Management
                             stated the Postal Service conducts periodic evaluations of
                             staffing for the Postal Inspection Service to ensure it is
                             staffed appropriately. Management’s comments, in their
                             entirety, are included in the appendix of this report.

Overall Evaluation of        Management comments were not responsive to
Management’s                 recommendations 1 and 2. We disagree that the Postal
Comments                     Inspection Service has a formal, internal process for
                             determining its overall staffing complement. We agree that
                             the Postal Service has a budget process and recognize that
                             the Postal Service delegated to Postal Inspection Service
                             management the authority to assess its staffing needs.
                             However, the delegation of authority, as an act, does not
                             provide a formal, internal process to determine the overall
                             staffing complement. Additionally, we were not provided
                             any evidence to substantiate a formal process existed.

                             We also disagree that the periodic reviews conducted by
                             Postal Service Human Resources provided an assessment
                             of the Postal Inspection Service’s overall complement and
                             mix of positions. We acknowledged in our audit report that
                             Postal Service Human Resources did conduct reviews
                             concerning restructurings, consolidations, closures, and
                             position changes. However, these reviews did not include
                             audits and assessments of the Postal Inspection Service’s
                             overall staffing complement and mix of positions to ensure
                             the Postal Inspection Service had the appropriate number of
                             positions to accomplish its mission and goals.




                                           ii
Postal Inspection Service Law                                                 SA-AR-03-004
 Enforcement Staffing Requirements


                             We view the disagreements on recommendations 1 and 2
                             as unresolved and plan to pursue them through the formal
                             audit resolution process.




                                          iii
Postal Inspection Service Law                                                    SA-AR-03-004
 Enforcement Staffing Requirements


                                     INTRODUCTION
Background                   The Postal Inspection Service, the primary law enforcement
                             arm of the Postal Service, is a specialized organization
                             performing investigative and security functions.

                             Postal Service inspectors are federal law enforcement
                             officers who carry firearms, make arrests, and serve federal
                             search warrants and subpoenas. Postal Service inspectors
                             are stationed throughout the United States and enforce over
                             200 federal laws covering investigations of crimes that
                             adversely affect or fraudulently use the United States mail
                             and Postal Service system.

                             As of September 2002, the Postal Inspection Service
                             maintained a staff of 4,007, including 1,873 inspectors,
                             1,341 postal police officers, and 793 professional and
                             support personnel. The actual complement of the
                             Postal Inspection Service decreased from 4,398 in
                             September 1998 to 4,007 in September 2002.

                             The Postal Inspection Service spends over three-quarters
                             of its annual budget on personnel costs. For fiscal year
                             (FY) 2003, the Postal Inspection Service allocated
                             $387,359,327 (79 percent) of its proposed annual budget of
                             $487,573,927 for personnel costs. In FYs 2002 and 2001,
                             the Postal Inspection Service spent 84 percent of its annual
                             budget on personnel costs.

Objective, Scope, and        Our overall objective was to determine how the Postal
Methodology                  Inspection Service establishes its staffing requirements.

                             To accomplish the objective, we interviewed officials from
                             Postal Service Headquarters and the Postal Inspection
                             Service. We reviewed associated criteria, staffing
                             processes, and related documentation. We analyzed data
                             on the Postal Inspection Service’s staffing complement
                             from 1998 through 2002 to determine the number of
                             authorized and on-board positions and mix of positions.
                             We analyzed inspectors’ direct program workhours from
                             FYs 1998 through 2002 and compared the results to the
                             Postal Inspection Service’s mission, goals, and strategic
                             plan.

                             We benchmarked with the Bureau of Alcohol, Tobacco, and
                             Firearms; Drug Enforcement Administration; Federal Bureau

                                           1
Postal Inspection Service Law                                                    SA-AR-03-004
 Enforcement Staffing Requirements


                             of Investigation; Immigration and Naturalization Service
                             Investigations; Internal Revenue Service Criminal
                             Investigation; United States Marshals Service; and Naval
                             Criminal Investigative Service to determine best practices
                             for establishing staffing requirements. We did not
                             independently verify the information received from these
                             agencies.

                             We conducted the audit from October 2002 through
                             August 2003 in accordance with generally accepted
                             government auditing standards. We reviewed management
                             controls as they related to the audit objective. Specifically,
                             we reviewed policies and procedures related to staffing. To
                             identify number and positions of authorized and actual
                             employees, we reviewed data from the Postal Service Labor
                             Negotiation Active Employee Reference Files, Postal
                             Service Organizational Management Staffing System, and
                             Postal Inspection Service Complement Reporting System.
                             We did not assess the reliability of the data from these
                             systems as part of our review. We discussed our
                             conclusions and observations with appropriate management
                             officials and included their comments, where appropriate.

Prior Audit Coverage         The Office of Inspector General (OIG) report, Postal
                             Service's FY 2000 Budget Formulation Process (Report
                             Number FT-AR-01-006, dated February 22, 2001), identified
                             that program budget officials did not ensure that budget
                             estimates for the number of personnel authorized and
                             on-board were based on current requirements. The audit
                             also disclosed that Postal Service officials had not
                             performed a comprehensive staffing study since 1992.

                             The OIG recommended, and Postal Service management
                             agreed, that the chief financial officer and executive vice
                             president should coordinate with management committee
                             members to reinforce the requirement for program budget
                             officials to update and fully document studies and analyses
                             to ensure that budget cost estimates for programs, related
                             benefits, and staffing are based on current goals and
                             strategies.

                             The OIG report, Inspection Service Budget Process (Report
                             Number OV-AR-00-005, dated September 29, 2000),
                             revealed that Postal Inspection Service management did not
                             establish a process for annually determining personnel
                             requirements and allocating these resources by location.

                                           2
Postal Inspection Service Law                                                   SA-AR-03-004
 Enforcement Staffing Requirements


                             Specifically, management did not establish a process for
                             annually determining whether the Postal Inspection Service
                             was operating under the appropriate staffing levels and
                             mixture of positions, and whether staff was appropriately
                             allocated among the headquarters and field operating units.

                             The OIG recommended the chief postal inspector establish
                             a process for annually assessing the personnel
                             requirements of each organizational element and allocate
                             resources based on the relative priority of mission and
                             functions.

                             The Postal Inspection Service stated that it would
                             strengthen its current processes for establishing personnel
                             requirements through an expanded program management
                             function and the allocation of resources based on strategic
                             direction.

                             However, the OIG stated that the Postal Inspection Service
                             should annually assess personnel requirements to ensure
                             that organizational changes that affect staffing are
                             systematically considered and incorporated into the
                             budgeting process. The OIG considered this
                             recommendation to be significant. This significant
                             recommendation remains open.




                                           3
Postal Inspection Service Law                                                    SA-AR-03-004
 Enforcement Staffing Requirements


                                     AUDIT RESULTS
Lack of a Formal             The Postal Inspection Service did not have a formal internal
Internal Process to          process for determining its overall staffing complement.
Determine Staffing           Specifically, the Postal Inspection Service did not conduct a
Requirements                 formal annual review to determine and justify its overall
                             complement. This occurred because neither Postal Service
                             nor Postal Inspection Service policy required the Postal
                             Inspection Service to develop a formal internal process for
                             annually determining and justifying its staffing requirements.
                             As a result, no comprehensive staffing reviews of the Postal
                             Inspection Service’s overall complement were conducted
                             during the period we reviewed, FYs 1998 through 2002, to
                             ensure the Postal Inspection Service had the appropriate
                             number of positions to accomplish its mission and goals.

                             The Postal Inspection Service management officials
                             interviewed stated the Postal Service Executive Committee
                             approved the authorized staffing complement for the Postal
                             Inspection Service. The deputy chief inspector,
                             headquarters Operations, stated the specific methodology
                             used to determine the authorized complement was
                             discussions between the chief postal inspector and the
                             postmaster general.

                             As a result of a follow-up conversation between the
                             inspector general and the postmaster general concerning
                             the deputy chief inspector’s staffing comments, the chief
                             postal inspector responded to the inspector general, in a
                             letter dated April 17, 2003, (see Appendix A). The chief
                             postal inspector stated there was a development process
                             used to establish budget and resource needs. We
                             requested Postal Inspection Service management provide
                             the documentation used in the development process that
                             was outlined in the letter. They did not provide any
                             additional documentation that the OIG did not already have
                             in reaching the conclusion that the Postal Inspection Service
                             did not have a formal process. These officials were not able
                             to provide OIG with documentation to substantiate the
                             development process for determining staffing requirements.

                             In addition, Postal Inspection Service officials said they
                             were not involved in the process for determining the
                             authorized complement. Postal Inspection Service officials
                             in the field stated that periodic reviews of performance were
                             conducted to ensure that assigned staffs were appropriately

                                           4
Postal Inspection Service Law                                                                         SA-AR-03-004
 Enforcement Staffing Requirements


                                  allocated to accomplish the Postal Inspection Service’s
                                  goals. Inspectors stated that they monitored inspector
                                  workhours, inspector accomplishments such as arrests and
                                  convictions, and internal and external crime trends.
                                  However, the results of these reviews were not formally
                                  used to determine authorized complement.

                                  The Employee and Labor Relations Manual, Issue 17.1,
                                  October 2002, provides guidance on staffing. The
                                  Employee and Labor Relations Manual1 states the following:

                                                • Employee Resource Management, within
                                                  Human Resources at headquarters, has
                                                  overall responsibility for the organizational
                                                  structures and staffing for Postal Service.

                                               •    All levels of managers throughout the Postal
                                                    Service are responsible for:

                                                    •    Planning and implementing administrative
                                                         and operating methods, which comply with
                                                         organizational structures and staffing.

                                                    •    Reviewing their organizations and
                                                         recommending changes according to the
                                                         instructions in this chapter.

                                               •    Staffing is defined as the numbers and types
                                                    of positions within organizations, and is
                                                    typically determined by criteria, guidelines, or
                                                    standards.

                                               •    The amount and type of work are the primary
                                                    determinants of authorized staffing.

                                  Six of the seven agencies benchmarked conducted annual
                                  staffing reviews, with input from field personnel, to
                                  determine their overall complement.2 One agency
                                  conducted staffing reviews every 2 years.3



1
  Employee and Labor Relations Manual, Sections 112.3, page 2; 113.1, page 3; and 125.2, page 6.
2
  The six agencies were Bureau of Alcohol, Tobacco, and Firearms; Drug Enforcement Administration;
Federal Bureau of Investigation; Immigration and Naturalization Service Investigations; Internal Revenue
Service Criminal Investigation; and the United States Marshals Service.
3
  The one agency was Naval Criminal Investigative Service.
                                                     5
Postal Inspection Service Law                                                   SA-AR-03-004
 Enforcement Staffing Requirements



                             However, the process used by the Postal Inspection Service
                             to determine authorized complement did not formally involve
                             field managers, nor did it require a comprehensive review of
                             the Postal Inspection Service’s overall staffing complement.
                             Instead, the Postal Inspection Service relied on discussions
                             between the chief postal inspector and the postmaster
                             general. Without formally requesting and using information
                             from field staff in determining the authorized complement,
                             decisions are made without complete and accurate
                             information.

                             A formal internal process for determining authorized
                             complement would integrate and actively involve all levels of
                             management within the Postal Inspection Service to ensure
                             that human resource decisions are appropriate to
                             accomplish organizational goals and objectives.

                             Additionally, the formal process should produce a
                             documented record of how the overall complement was
                             determined, including the methodology and basis for those
                             decisions. This record would provide historical data for
                             future staffing decisions.

                             In the prior OIG report, Inspection Service Budget Process
                             (Report Number OV-AR-00-005, dated September 29,
                             2000), the OIG recommended the chief postal inspector
                             establish a process for annually assessing the personnel
                             requirements of each organizational element and allocate
                             resources based on the relative priority of mission and
                             functions.

                             The Postal Inspection Service stated that it would
                             strengthen its current processes for establishing personnel
                             requirements through an expanded program management
                             function. However, based on our review, the Postal
                             Inspection Service had not established a process for
                             annually assessing its personnel requirements. The OIG
                             considers this recommendation to be significant, and it is
                             still open.




                                           6
Postal Inspection Service Law                                                   SA-AR-03-004
 Enforcement Staffing Requirements



Recommendation               We recommend the chief postal inspector, in conjunction
                             with the senior vice president, Human Resources:

                                 1. Develop a formal, documented internal process to
                                    conduct an annual staffing review to determine the
                                    Postal Inspection Service’s staffing complement.

Management’s                 Management disagreed with the recommendation, stating
Comments                     that a formal internal process did exist and was incorporated
                             in the Postal Service’s annual budget call. Management
                             stated this process was based on the management practice
                             of delegating authority to Inspection Service management
                             executives and allowing them to assess their staffing needs.
                             Management further stated this process included input from
                             all levels of Inspection Service management. In addition,
                             management stated the current practice had the
                             concurrence of the Postal Service, to regularly and routinely
                             assess staffing needs to respond to the ever-changing
                             nature of the work provides greater benefit than a practice
                             of reviewing staffing on an annual basis.

                             Management stated that since 1998 numerous staffing
                             studies had been conducted of targeted jobs to evaluate the
                             current staffing complement to ensure that it is inline with
                             and adequate to support the mission of the Inspection
                             Service.

                             Management, in response to OIG’s federal benchmarking,
                             stated they contacted the Drug Enforcement Agency and
                             were informed the Drug Enforcement Agency did not
                             conduct annual staffing reviews and views them as
                             unnecessary and impractical.

Evaluation of                Management’s comments were not responsive. We
Management’s                 disagree that the Postal Inspection Service had a formal,
Comments                     internal process for determining its overall staffing
                             complement. We agree the Postal Service had a budget
                             process and recognize that the Postal Service delegated to
                             Postal Inspection Service management the authority to
                             assess its staffing needs. However, the delegation of
                             authority, as an act, did not provide a formal, internal
                             process to determine the overall staffing complement.
                             Additionally, we were not provided any evidence to
                             substantiate a formal process existed.

                                           7
Postal Inspection Service Law                                                                       SA-AR-03-004
 Enforcement Staffing Requirements


                                 During our audit, we interviewed Postal Inspection Service
                                 and Postal Service officials to determine how the overall
                                 complement was established. These interviews included
                                 the assistant chief inspector, Administrative Operations;
                                 manager, Human Resources Performance; deputy chief
                                 inspectors; inspectors in charge in two divisions; and the
                                 manager, Customer Requirements, Labor Relations. These
                                 officials responded that they were not involved in
                                 determining the Postal Inspection Service’s overall
                                 complement. Also, the deputy chief inspector, headquarters
                                 Operations, stated the overall complement was determined
                                 through discussions between the postmaster general and
                                 chief postal inspector and the deputy chief inspector;
                                 headquarters Operations was not involved in the
                                 determination of the overall complement.

                                 Management stated the Inspection Service’s staffing
                                 process is incorporated in the Postal Service’s annual
                                 budget call, and this process was discussed with OIG
                                 personnel conducting an audit of the Inspection Service’s
                                 resource allocations for FY 2003. The audit referred to
                                 focused on the nonpersonnel administrative budget not the
                                 staffing complement. In addition, this OIG audit team was
                                 not provided information supporting the determination of
                                 Postal Inspection Service’s overall staffing complement, nor
                                 were staffing issues reviewed in the referenced audit.

                                 During the audit we were told by the assistant chief
                                 inspector, Administrative Operations that Postal Service
                                 Customer Requirements was responsible for determining
                                 the overall staffing complement and the Postal Inspection
                                 Service did not initiate reviews to justify its overall staffing
                                 complement. This official further stated the determination of
                                 overall complement was not zero-based,4 but generally
                                 based on the previous year’s complement. Also, the
                                 manager, Customer Requirements, Labor Relations stated
                                 he was not involved in determining the Postal Inspection
                                 Service’s overall staffing complement because the overall
                                 staffing complement was determined by the Postal Service




4
 Using zero-based methodology, overall complement levels should start at zero and should be justified
every year based on requirements, and not based primarily on the previous year’s complement.

                                                    8
Postal Inspection Service Law                                                                      SA-AR-03-004
 Enforcement Staffing Requirements



                                 Executive Committee.5 Further, neither Postal Inspection
                                 Service nor Postal Service officials interviewed provided
                                 supporting documentation of a formal, internal staffing
                                 process to determine overall complement within the Postal
                                 Inspection Service. Additionally, we requested the
                                 supporting information referenced by the chief postal
                                 inspector’s letter dated April 17, 2003. However, no
                                 documentation was provided.

                                 Furthermore, management stated that during the period
                                 FY 1998 through 2002 studies of targeted jobs were done
                                 and the support was provided to the OIG. As reported in
                                 our audit report, we received documentation for 55 Postal
                                 Inspection Service requests for staffing changes. However,
                                 none of these requests involved a comprehensive staffing
                                 review of the Postal Inspection Service’s complement. Of
                                 the 55 requests, 45 related to position changes such as
                                 additions, deletions, conversions, upgrades, changes to job
                                 descriptions, and title changes. The remaining 10 requests
                                 related to restructurings, consolidations, and closures.

                                 Management stated they received feedback from the Drug
                                 Enforcement Agency indicating the Drug Enforcement
                                 Agency did not conduct annual staffing reviews and viewed
                                 them as unnecessary and impractical. We do not know the
                                 source of the Postal Inspection Service’s feedback from the
                                 Drug Enforcement Agency. However, when we spoke with
                                 the section chief, Office of Resource Management at the
                                 Drug Enforcement Agency, we were informed that the Drug
                                 Enforcement Agency conducted annual reviews, with input
                                 from field personnel, to determine its overall complement.

                                 We view the disagreement on recommendation 1 as
                                 unresolved and plan to pursue it through the formal audit
                                 resolution process.




5
  According to the manager, Customer Requirements, Labor Relations the Postal Service Executive
Committee is comprised of Postal Service senior management, including the postmaster general, senior vice
president of Human Resources, and other vice presidents.
                                                   9
Postal Inspection Service Law                                                               SA-AR-03-004
 Enforcement Staffing Requirements



Audits and                        Postal Service Human Resources did not conduct audits
Assessments of                    and assessments of the overall complement and mix of
Overall Complement                positions of the Postal Inspection Service to ensure the
and Mix of Positions              effectiveness of approved staffing in accordance with Postal
                                  Service policy. The manager, Customer Requirements,
                                  Labor Relations stated this occurred because they did not
                                  have adequate staff. By not conducting audits and
                                  assessments of the overall complement and mix of
                                  positions, Postal Service Human Resources was not able to
                                  provide the Postal Service and the Postal Inspection
                                  Service a complete measure of the effective use of human
                                  resources by the Postal Inspection Service.

                                  The Employee and Labor Relations Manual states the
                                  following:6

                                               •    Employee Resource Management, within
                                                    Human Resources at headquarters, has
                                                    overall responsibility for the organizational
                                                    structures and staffing for Postal Service. This
                                                    includes designing programs and procedures
                                                    for auditing and assessing existing structures
                                                    and staffing.

                                               •    Customer Requirements, Employee Resource
                                                    Management, periodically assesses
                                                    established structures and staffing. The
                                                    reviews are conducted to ensure that the
                                                    allocation of approved positions and the
                                                    assignment of personnel reflect the most
                                                    effective use of human resources. Specific
                                                    objectives are to assess the effectiveness of
                                                    approved staffing and structure.

                                               •    The amount and type of work are the primary
                                                    determinants of authorized staffing.

                                               •    Staffing is defined as the numbers and types
                                                    of positions within organizations, and is
                                                    typically determined by criteria, guidelines, or
                                                    standards.




6
    Employee and Labor Relations Manual, Sections 162.1, page 19; and 162.2, page 20.
                                                    10
Postal Inspection Service Law                                                   SA-AR-03-004
 Enforcement Staffing Requirements



                             The manager, Customer Requirements, Labor Relations
                             stated audits and assessments of the Postal Inspection
                             Service staffing were done only when requested by the
                             Postal Inspection Service. Postal Inspection Service
                             requests for individual staffing changes were submitted to
                             Postal Inspection Service Human Resources Performance
                             for review and approval. Upon approval, the requests were
                             forwarded to Customer Requirements. Customer
                             Requirements performed the necessary analysis and
                             evaluation of the requests and made a recommendation to
                             the vice president, Employee Resource Management.

                             For FYs 1998 through 2002, we reviewed 55 Postal
                             Inspection Service requests for staffing changes provided to
                             Customer Requirements for review and approval. However,
                             none of these requests involved audits or assessments of
                             the overall complement and mix of positions for the Postal
                             Inspection Service.

Recommendation               We recommend the senior vice president, Human
                             Resources:

                                 2. Ensure audits and assessments of the overall staffing
                                    complement and mix of positions of the Postal
                                    Inspection Service are conducted on a periodic basis
                                    to evaluate the effectiveness of approved staffing,
                                    and provide the results to the chief postal inspector.

Management’s                 Management disagreed with the recommendation, stating
Comments                     the Postal Service conducts periodic evaluations of staffing
                             for all units within the organization, including the Postal
                             Inspection Service. Each unit or department head initiates
                             such evaluations, in most cases, more frequently than once
                             a year. Management stated the Postal Inspection Service
                             was not a static organization where annual evaluations
                             might suffice, rather a dynamic, responsive organization
                             which initiated periodic and regular requests for staffing
                             evaluations. Management further stated that Human
                             Resources worked closely with Postal Inspection Service
                             representatives to ensure the Postal Inspection Service was
                             staffed in a manner that best meets the multiple
                             responsibilities, which are incorporated in its mission.




                                           11
Postal Inspection Service Law                                                                   SA-AR-03-004
 Enforcement Staffing Requirements



Evaluation of                      Management’s comments were not responsive. We
Management’s                       disagree that the periodic reviews conducted by Postal
Comments                           Service Human Resources provided an assessment of the
                                   Postal Inspection Service’s overall complement and mix of
                                   positions. We acknowledged in our audit report that Postal
                                   Service Human Resources did conduct reviews concerning
                                   restructurings, consolidations, closures, and position
                                   changes. However, these reviews did not include audits
                                   and assessments of the Postal Inspection Service’s overall
                                   staffing complement and mix of positions to ensure the
                                   Postal Inspection Service had the appropriate number of
                                   positions to accomplish its mission and goals, as required
                                   by the Postal Service Employee and Labor Relations
                                   Manual.7 Additionally, the manager, Customer
                                   Requirements, Labor Relations stated he only had a staff of
                                   five and did not have adequate staff resources to conduct
                                   these required audits and assessments.

                                   Such audits and assessments can provide a complete
                                   measure of the effective use of human resources by the
                                   Postal Inspection Service. In addition, the Postal Inspection
                                   Service would be provided an independent, external review
                                   of their overall staffing complement and mix of positions.
                                   The current reliance on the Postal Inspection Service to
                                   solely identify and request staffing changes, and not having
                                   Postal Service Human Resources proactively involved
                                   deviates from current Postal Service policy.

                                   We view the disagreements on recommendation 2 as
                                   unresolved and plan to pursue it through the formal audit
                                   resolution process.




7
    Postal Service Employee and Labor Relations Manual 17, July 2002, Sections 112.1 and 162.
                                                    12
Postal Inspection Service Law                       SA-AR-03-004
 Enforcement Staffing Requirements


    APPENDIX A. LETTER DATED APRIL 17, 2003, FROM THE
                CHIEF POSTAL INSPECTOR




                                     13
Postal Inspection Service Law                    SA-AR-03-004
 Enforcement Staffing Requirements


             APPENDIX B. MANAGEMENT’S COMMENTS




                                     14
Postal Inspection Service Law             SA-AR-03-004
 Enforcement Staffing Requirements




                                     15
Postal Inspection Service Law             SA-AR-03-004
 Enforcement Staffing Requirements




                                     16
